Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       Medicare Home Health Care
        Community Beneficiaries
                 2001




                   JANET REHNQUIST
                  Inspector General

                     OCTOBER 2001
                     OEI-02-01-00070
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:


REGION                                         HEADQUARTERS

Ellen Vinkey, Project Leader
          Tricia Davis, Program Specialist
Christi Macrina, Lead Analyst
                 Brian Ritchie, Technical Support
Judy Lin
                                      Scott Horning
Thomas Zimmermann
                     Linda Moscoe
                                               Barbara Tedesco, Mathematical Statistician

      To obtain copies of this report, please call the New York Regional Office at (212) 264-1998.
             Reports are also available on the World Wide Web at our home page address:

                                      http://www.hhs.gov/oig/oei/
                       EXECUTIVE SUMMARY

PURPOSE
         To identify the population of Medicare home health beneficiaries coming from the
         community, to describe how they access home health care, and to identify any access
         issues.

BACKGROUND

         The home health care environment has undergone a great deal of change within the last
         few years. This inspection is part of a larger body of work that the Office of Inspector
         General (OIG) is conducting on Medicare home health services. For this study, we defined
         “home health community beneficiaries” as those patients that have not been in a hospital
         or skilled nursing facility in the 15 day period prior to the start of their home health care.
         First, we analyzed home health claims data from the Centers for Medicare & Medicaid
         Services (CMS) for each of the first quarters of 1997 through 2000. Secondly, we
         administered a mail survey to 501 Medicare home health beneficiaries. Finally, we
         interviewed 60 aging network representatives, 30 home health agencies, 21 physicians,
         and 10 home health hotline representatives for a total of 121 telephone interviews.

FINDINGS

About 40 percent of Medicare home health beneficiaries do not have a prior
hospital or nursing home stay

         Thirty-eight percent of Medicare beneficiaries who started home health care in the year
         2000 had not been in a hospital or skilled nursing facility prior to getting home health care.
         We found variation across States in 2000 with regard to the percentage of Medicare
         “community beneficiaries.” For example, 2000 data show that New Jersey had the lowest
         percentage of “community beneficiaries,” 27 percent of all Medicare home health patients
         in that State, while the percentage in the State of Louisiana was 47 percent.

Characteristics of “community beneficiaries” unchanged

         We found only minimal change over time in the characteristics of “community
         beneficiaries” receiving home health services. The average age, gender ratio, racial
         distribution, and urban/rural designation all remained relatively constant between 1997 and
         2000. In addition, the same five diagnoses remained in the top five ranking for home
         health beneficiaries who came from the community between 1997 and 2000. When
         comparing the diagnoses of “community beneficiaries” and hospital-discharged patients,
         we found some evidence that “community home health patients” have more chronic
         conditions.


Home Health Community Beneficiaries 2001           i                                 OEI-02-01-00070
Beneficiaries accessing home health care from the community rely on multiple
sources to obtain home health services

         All respondents agree that doctors play the most prominent role in connecting “community
         beneficiaries” to home health services. However, they add that family or friends also play
         a role and that aging network representatives are sometimes instrumental in informing
         “community beneficiaries” about the availability of home health services.

Overall, home health care appears to be accessible

         The majority of physicians (18 of 21) and home health agencies (22 of 30) we spoke with
         report that all of the “community beneficiaries” who were eligible for Medicare home
         health services were able to get these services during the past year. In addition, aging
         network representatives did not report any major access problems; however, most of those
         who had contact with Medicare “community beneficiaries” point out that they generally do
         not know whether or not these beneficiaries eventually get home health services. While
         we did not find evidence of significant access problems for “community beneficiaries,”
         some respondents expressed concerns about various aspects of home health care.
         Physicians, home health agencies, and aging network representatives all report anecdotal
         evidence that “community beneficiaries” with certain medical conditions are unable to
         obtain Medicare home health services. In most instances, we found the reported
         experiences of “community beneficiaries” to be similar to those discharged from the
         hospital into Medicare home health services.




Home Health Community Beneficiaries 2001         ii                               OEI-02-01-00070
                     TABLE                        OF              CONTENTS


                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Forty Percent of Beneficiaries Do Not Have a Prior Hospital/Nursing Home Stay . . . . . 9


          Characteristics of “Community Beneficiaries” Unchanged . . . . . . . . . . . . . . . . . . . . . . 11


          “Community Beneficiaries” Rely on Multiple Sources to Obtain Services . . . . . . . . . . . 13


          Overall, Care Appears to Be Accessible . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



APPENDIX


A: Selected List of Other Recent OIG Home Health Inspections . . . . . . . . . . . . . . . . . . . . . . . 17


B: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


C: Chi-Square Test            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Home Health Community Beneficiaries 2001                            iii                                               OEI-02-01-00070
                                  INTRODUCTION

PURPOSE

         To identify the population of Medicare home health beneficiaries coming from the
         community, to describe how they access home health care, and to identify any access
         issues.

BACKGROUND

         The home health care environment has undergone a great deal of change within the last
         few years. This inspection is part of a larger body of work that the Office of Inspector
         General (OIG) is doing on Medicare home health services, and will add to the body work
         the OIG has done in this area (See Appendix A).

         In particular, this inspection looks at how Medicare beneficiaries gain access to home
         health services in cases where they have not been in the hospital or a skilled nursing
         facility prior to home health care. An OIG inspection released in July 2001 looked at
         access to home health services for beneficiaries discharged from the hospital to Medicare
         home health agencies. The scope of that study was limited to hospital beneficiaries for
         methodological reasons. By relying on a wide variety of data sources, this study seeks to
         gather information on access to home health services for beneficiaries that have not had a
         recent stay in a medical facility.

Medicare Home Health Care

         Home health services consist of skilled nursing, therapy (physical, occupational and
         speech), and certain related services, including social work and aide services, all furnished
         in a patient’s home. Services are typically provided by registered nurses, therapists, social
         workers, or home health aides employed by or under contract to a home health agency
         (HHA). These agencies can be free-standing or provider-based and are classified as not-
         for-profit, proprietary, or governmental.

         Medicare will pay for home health care only if it is reasonable and necessary for the
         treatment of the patient’s illness or injury. In order to be eligible for services, a beneficiary
         must be homebound, be under the care of a physician who has established a plan of care,
         and need at least one of the following intermittent and not full time skilled services: skilled
         nursing care, physical therapy, speech therapy, continued occupational therapy at the start
         of care. (Occupational therapy alone does not constitute a skilled need. However, after
         care has begun and other skilled services are discontinued, continued occupational therapy
         is a skilled need.) Home health aide visits are covered to the extent that the aide services
         support the skilled need of the beneficiary. There are no



Home Health Community Beneficiaries 2001            1                                   OEI-02-01-00070
         specific limits on the number of visits or length of coverage and no co-payments or
         deductibles apply.

Trends in Medicare Home Health Care

         After a history of increases, Medicare home health expenditures have dropped since 1998.
         Between Fiscal Years 1991 and 1997, Medicare home health care annual expenditures
         rose from $4.7 billion to $17.6 billion. This was due to an increase in both number of
         beneficiaries receiving home health services and the number of visits they received. In
         1998, however, spending for home health services began to drop and in Fiscal Year 1999
         was about $8.7 billion. Furthermore, the average home health length of stay has declined
         from 98 days in 1997 to 58 days in 1999 and the number of beneficiaries served has
         decreased by 22 percent1.

         A number of factors have contributed to the recent decrease in Medicare home health
         spending. These include interim payment limits created by the Balanced Budget Act of
         1997, as well as several initiatives that were implemented in response to concerns about
         fraud and abuse. Specifically, in 1996, the Health Insurance Portability and Accountability
         Act substantially increased financial support to the OIG’s fraud control efforts.

         Prospective Payment System

         The Balanced Budget Act of 1997 (BBA) required that the existing cost-based home
         health payment system be replaced with a prospective payment system (PPS) of fixed,
         predetermined rates on October 1, 2000. To allow time for HCFA to develop this
         prospective payment system, the BBA mandated an interim payment system (IPS) to limit
         payments. The IPS became effective for cost-reporting periods beginning October 1,
         1997, and continued until PPS began on October 1, 2000. The IPS was intended to
         control the aggregate costs of services provided to beneficiaries in two ways. First, it
         subjected Medicare HHAs to a new payment limit that was based on an aggregate per-
         beneficiary amount. This limit was based on a blend of historical per-user costs for the
         agency and agencies in the region. It was applied to an agency’s total Medicare payments
         and not to specific beneficiaries. Second, it decreased the per-visit limits from 112 percent
         of the national mean cost per visit to 105 percent of the national median. Medicare then
         paid HHAs the lower of their actual costs, the aggregate per-beneficiary limit, or the
         aggregate per-visit limit.

         Prior to the implementation of IPS, home health agencies were reimbursed based on what
         it cost to provide services to Medicare beneficiaries. As a result there was a financial
         incentive for HHAs to provide more services than might be necessary. Under the new
         prospective payment system, financial incentives have changed somewhat. Because




         1
          Comparisons are between the first 2 months of 1997 and the analogous period in 1999.



Home Health Community Beneficiaries 2001                    2                                    OEI-02-01-00070
         agencies are now paid fixed, pre-determined rates, there may be an incentive for home
         health agencies to limit the services provided within a given episode of care. As a result,
         Medicare beneficiaries receiving home health services may be at risk of receiving fewer
         services than in the past.

         Medicare Home Health Beneficiaries From The Community

         For purposes of this study we are defining Medicare home health beneficiaries from the
         community as those patients that have not been in a hospital or skilled nursing facility in
         the 15 day period prior to the start of their home health care. Beneficiaries who have
         visited a hospital outpatient clinic but have not had an overnight stay will be considered
         from the community since, in many cases, these beneficiaries will not have had the benefit
         of hospital discharge planning services.

Related Work

         Selected OIG Studies

         The Office of the Inspector General has recently released a number of related inspections.
         Access to Home Health Care After Hospital Discharge 2001, OEI-02-01-00180, was
         released in July 2001. This inspection assessed access to home health services for
         Medicare beneficiaries discharged from the hospital. Eighty-nine percent of discharge
         planners report that under the prospective payment system they can place all of their
         Medicare patients who need care in home health agencies, however, some patients
         experience delays associated with certain medical conditions or service needs.
         Additionally, we found that, overall, the availability of home health services seems to be
         sufficient, even though the number of agencies has decreased. In conclusion, little
         evidence was found that the new prospective payment system is limiting beneficiaries’
         access to care. Similar inspections were conducted by the OIG in 2000 and 1999, at that
         time the interim payment system was in effect. Findings related to beneficiary access to
         home health services were similar. In addition, the OIG recently released two studies that
         included surveys of beneficiary and physician perspectives on Medicare home health
         services.2

         Earlier OIG work on Medicare home health services includes two other related studies,
         both of which addressed the adequacy of home health services. There have been some
         concerns about the adequacy of services in light of recent significant decreases in
         Medicare home health care expenditures. In response to these concerns, the OIG
         evaluated hospital re-admission and emergency visit rates and looked at home health
         agency survey and certification deficiencies. Data from these studies indicate that there




         2
       “Medicare Home Health Beneficiary Survey,” OEI-02-00-00560 and “The Physician’s Role in Medicare
Home Health Care: A Follow-up,” OEI-02-00-00620.


Home Health Community Beneficiaries 2001           3                                  OEI-02-01-00070
         have not been significant increases in re-admissions or emergency room visits for home
         health care patients. In addition, we found that, overall, home health agency deficiencies
         increased 26 percent between the first 6 months of 1997 and the first 6 months of 1999,
         but that there is no single explanation for this growth.

         Other Work

         Several other studies have examined access to home health care for Medicare
         beneficiaries, although, as noted earlier, none that we found focused exclusively on
         beneficiaries from the community. The tendency has been toward gathering information
         about beneficiaries who start home health after having been in a medical facility such as a
         hospital.

         A 1999 report by the General Accounting Office found that although about 14 percent of
         HHAs have closed since 1997, there is little evidence that appropriate access to care has
         been impaired. The study found that closures occurred most frequently in areas that had
         experienced considerable growth.

         Also in 1999, a two-part study released by George Washington University (GWU)
         entitled, An Examination of Medicare Home Health Services: A Descriptive Study of the
         Effects of the Balanced Budget Act Interim Payment System on Access to and Quality of
         Care, found that the majority of HHAs participating in the study in eight States altered
         their case mix and/or practice patterns to conform utilization to IPS reimbursement. The
         second phase of the GWU study found hospital discharge planners reporting more
         difficulty in obtaining home health services for Medicare beneficiaries. Most attributed
         these increases to changes in admitting and practice patterns by HHAs, changes in staffing
         patterns, or the effects of agency closures in their service area.

         Similarly, the 1999 study sponsored by the Medicare Payment Advisory Commission
         contained survey information from HHAs and entailed panel discussion information on the
         issue of access with health professionals, attorneys, and advocates. The report found that
         many HHAs have adopted new admission and discharge practices since IPS.

         Finally, two 1999 reports based on early data from CMS’s Per-Episode Home Health
         Prospective Payment Demonstration suggest that prospective payment can lower
         Medicare home health costs without harming quality of care. The first report found no
         evidence that quality of care as measured by patient outcomes was adversely affected.
         The second report concluded that although the per-episode prospective payment
         demonstration substantially reduced home visits, it did not suggest that quality of care was
         affected.




Home Health Community Beneficiaries 2001          4                                 OEI-02-01-00070
METHODOLOGY

         We obtained data for this study from a number of sources. We analyzed CMS claims
         data and administered surveys to a number of different respondent groups.

Analysis of Claims

         Data Analysis Universe Selection

         We selected all CMS home health claims for each of the first quarters of 1997, 1998,
         1999, and 2000. One hundred percent of final clams were used for 1997-2000. These
         claims were cross matched against hospital and skilled nursing facility claims to identify
         Medicare beneficiaries who had a stay in either of these facilities within the 15 day period
         preceding the start of their home health services. Those beneficiaries who did not have a
         match were coded as “from the community.”

         The universe was limited to the first episode for each beneficiary for a given year, making
         the unit of analysis a beneficiary. For the purposes of this data analysis, a new episode is
         defined as beginning when a gap of over 30 days exists between an HHA claim “service
         from date” and the prior claims “service thru date” for a given beneficiary. In addition, if a
         beneficiary had both a hospital stay and a SNF stay within the 15 day period preceding
         their HHA episode and the SNF stay was more recent, they were coded as a beneficiary
         with a recent SNF stay. Therefore, a beneficiary could only be counted one time in any
         given year, however, they could show up in more than 1 year.

         Data Analysis

         Selection of this sample enabled us to determine the current proportion of Medicare
         beneficiaries “from the community”-- those admitted to home health services without a
         recent hospitalization or SNF stay. Using these data we also analyzed whether the
         proportion of “community beneficiaries” differs across States. Finally, these data were
         analyzed to determine what proportion of home health beneficiaries came from the
         community in an earlier period (first quarter of 1997).

         In addition, we used HHA claims data, including ICD-9 diagnosis data, to a build a profile
         of Medicare home health patients who come from the community. Specifically, we looked
         at the most common home health diagnoses, age, sex, race, and urban-rural designation.
         Using CMS National Claims Data, we compared this profile to previous years to ascertain
         what, if any, change had occurred. We also compared the diagnoses of “community
         patients” to those discharged from the hospital to home health services. Diagnosis related
         groups (DRGs) were used as a proxy for diagnosis for hospital-discharged patients.




Home Health Community Beneficiaries 2001           5                                 OEI-02-01-00070
         The first quarter of 1997 was chosen as the earliest comparison period for our data
         analysis because the interim payment system (IPS) was not yet in effect. At that time
         providers were being paid on a cost basis, as they had been for many years, as opposed to
         being reimbursed based on fixed pre-determined rates. It should be noted that the latest
         comparison period we look at, first quarter of 1999, reflects data associated with a fully
         implemented interim payment system, however, it pre-dates the October 1, 2000
         implementation of the prospective payment system (PPS).

Beneficiary Sample for Mail Survey

         Using the CMS National Claims History File, all Medicare beneficiary HHA claims for
         services started within the period January 7-12, 2001, were identified. A random sample
         of 700 beneficiaries was selected. Since this was a random sample, we expected the
         proportion of respondents who received home health services without a recent
         hospitalization or SNF stay to be approximately the same proportion as it is in the universe
         at large. We received completed mail questionnaires from 501 beneficiaries in all. This
         was the same sample we used in a related OIG inspection entitled Medicare Beneficiary
         Home Health Survey, OEI-02-00-00560.

Sample Selection For Telephone Interviews

         We chose a purposive sample of the 10 States with the highest number of home health
         beneficiaries coming from the community. In the year 2000, 52 percent of the population
         of “community beneficiaries” resided in these 10 States. In addition, these States provide
         representation across different geographic regions and include States with long-standing
         and active aging programs as well. The 10 States are: California, Florida, Illinois,
         Louisiana, Massachusetts, Michigan, New York, North Carolina, Pennsylvania, and
         Texas. With the exception of the beneficiary mail survey, all respondents were from these
         10 States. We administered telephone surveys to each of the respondent groups identified
         below. Telephone interviews were conducted during April and May of 2001.

Respondents From 10 State Sample

         Physician Sample, 21 Interviews. We pulled a simple random sample of physicians
         within the 10 States. Using the CMS National Claims History File to identify Medicare
         beneficiary HHA claims for services provided during the last 6 months of 2000, we
         eliminated beneficiaries whose records showed a hospital or SNF stay within the 15 day
         period prior to their home health services, and identified physicians who signed a home
         health plan of care associated with the remaining HHA claims. We then selected a random
         sample of physicians from those who signed 2 or more home health plans of care during
         the last 6 months of 2000.




Home Health Community Beneficiaries 2001          6                                OEI-02-01-00070
         Home Health Agency Sample, 30 Interviews. Using CMS’s OSCAR and National
         Claims History data, we pulled a simple random sample of Medicare home health agencies
         that was large enough to ensure that we were able to hold discussions with 30 agencies.
         All agencies in our 10 State sample that had submitted claims in the last 6 months of 2000
         were included in our universe.

         State Unit on Aging (SUA) Sample, 10 Interviews. We identified and interviewed the
         State Unit on Aging director in each of the 10 States. SUA directors, who operate at the
         State level, were asked questions about emerging trends affecting Medicare beneficiaries
         seeking home health services.

         State Health Insurance Program (SHIP) Sample, 10 Interviews. We identified and
         interviewed the State Health Insurance coordinator (commonly referred to as SHIP
         coordinators) in each of the 10 States. SHIP co-ordinators, who operate at the State
         level, were also asked questions about emerging trends affecting Medicare beneficiaries
         seeking home health services. The SHIPs are staffed with volunteers whose function it is
         to provide guidance on health insurance options for older Americans.

         Area Agencies on Aging (AAA) Sample, 20 Interviews. In each of the 10 States we
         identified and interviewed two AAA representatives. These respondents were identified
         by State-level program directors. Because these local agencies are known to have a
         significant amount of hands-on experience with Medicare beneficiaries, we relied on them
         to provide information on the actual experiences of Medicare beneficiaries attempting to
         access Medicare home health services from the community.

         Local State Health Insurance Program (Local SHIP) Sample, 20 Interviews. In each
         of the 10 States we identified and interviewed two local SHIP representatives. These
         respondents were identified by State-level SHIP co-ordinators. Because these agencies
         are known to have a significant amount of hands-on experience with Medicare
         beneficiaries, we relied on them to provide information on the actual experiences of
         Medicare beneficiaries attempting to access Medicare home health services from the
         community.

         State Home Health Hotline Sample, 10 Interviews. We identified the State home
         health hotline representative in each of the 10 States. Each State is required to have a
         home health hotline set up to handle questions and complaints. The hotline provides
         services ranging from home health agency referrals to investigation of complaints against
         an agency. We asked hotline representatives general questions seeking to gain any
         knowledge they might have pertinent to “community beneficiary” access to home health
         services. In total we conducted 121 telephone interviews.




Home Health Community Beneficiaries 2001          7                                OEI-02-01-00070
Limitations

         For purposes of our trend analyses, we used CMS claims data for a 3 month sample time
         frame (January- March) to project to the balance of the year. To the extent that claims in
         the first 3 months of a given year differed substantially from the balance of the year, they
         are not represented in our analyses. In addition, it should be noted that this study focuses
         exclusively on Medicare home health services provided to fee-for-service Medicare
         patients and, therefore, does not address the experiences of Medicare home health patients
         who are enrolled in a Medicare + Choice managed care plan (approximately 15 percent of
         the Medicare beneficiary population).




Home Health Community Beneficiaries 2001          8                                 OEI-02-01-00070
                                           FINDINGS

About 40 percent of Medicare home health beneficiaries do
not have a prior hospital or nursing home stay
         We found that 38 percent of Medicare beneficiaries who started home health services in
         the year 2000 had not been in a hospital or skilled nursing facility prior to getting home
         health care3. (See Figure 1 below.) One characteristic that differentiates these patients,
         who come directly from the community, is that they do not have the benefit of discharge
         planning services. This difference can have a number of impacts. First, “community home
         health beneficiaries” often have less access to information about the Medicare services for
         which they may be eligible. Additionally, they may not know what process they need to
         follow to obtain services. Finally, they are likely to be without the benefit of a home
         health agency referral list, which most discharge planners are required to provide to
         prospective home health patients.

                                         Figure 1 

                 Proportion of Medicare Beneficiaries in Home Health Care

                                by Referral Source - 2000 





                                              38%


                               14%                                       Community
                                                                         SNF
                                                                         Hospital


                                           48%




                                                     Source: National Claims History File, first quarter data



         3
         Within the 15 day period prior to the start of their home health services. Percentages are based on a 3
month sampling time frame-- January 1, 2000 - March 31, 2000. Projection to the full year is based on the
assumption that claims during the first 3 months are similar those submitted throughout the balance of the year.


Home Health Community Beneficiaries 2001                9                                       OEI-02-01-00070
         The total number of beneficiaries who received home health services in the first quarter of
         1997 was 848,990. In the first quarter of 2000 this number was 733,410. During this
         period the proportion of Medicare “community beneficiaries” decreased by a small
         amount. We found that in the first quarter of 1997, 41 percent of Medicare home health
         patients had not been in the hospital or a skilled nursing facility prior to starting services.
         In the first quarter of 2000, this number had dropped slightly to 38 percent.

Percentage of “community home health beneficiaries” varies across States

         There is variation across States in 2000 with regard to the percentage of Medicare home
         health patients that begin services without a prior hospital or skilled nursing facility stay,
         as Figure 2 below indicates.

                                        Figure 2

                             Variation in the Proportion of 

                 “Community Home Health Beneficiaries” by States in 2000





                                                                      27 - 33% Community beneficiaries
                                                                      34 - 40% Community beneficiaries
                                                                      41 - 47% Community beneficiaries



                                                  Source: National Claims History File, First Quarter Data




Home Health Community Beneficiaries 2001           10                                     OEI-02-01-00070
         For example, New Jersey had the lowest percentage of “community beneficiaries”-- 27
         percent of all Medicare home health patients in that State4, while the percentage of
         “community beneficiaries” in the State of Louisiana was 47 percent. The range between
         the States with the highest and lowest percentages of “community beneficiaries” is similar
         in earlier years. Medicare claims data show that in 1997 the lowest percentage was 27 and
         the highest was 53 percent. It is important to keep in mind that there are many factors
         that may influence these statistics. For example, the extent to which community-based
         aging programs are available in a given area may affect the proportion of “community
         home health beneficiaries.” Other factors like the number of home health agencies and
         skilled nursing facilities in a given State may affect the proportion of “community
         beneficiaries” as well.



Characteristics of “community beneficiaries” unchanged
         We found only minimal change over time in the characteristics of “community
         beneficiaries” receiving home health services. In 1997, the average age of a community
         home health beneficiary was 78. In 2000, the average age was 79. Sixty-seven percent of
         “community beneficiaries” were women in 1997, while 33 percent were men. This gender
         ratio remained constant in 2000. In addition, the racial distribution of “community
         beneficiaries” changed very little between 1997 and 2000.

         There has also been little change in the geographic distribution of “community
         beneficiaries.” In 1997, 74 percent lived in an urban area, while 26 percent lived in a rural
         area. In 2000, one percent more “community beneficiaries” lived in an urban area.

Top five diagnoses for community home health beneficiaries remain the same

         As shown in Figure 3 on the next page, the same five diagnoses remained in the top five
         ranking for home health beneficiaries who came from the community between 1997 and
         2000. However, the ranking of these diagnoses changed somewhat beginning in 1999.
         Proportionately more “community beneficiaries” with chronic ulcer of the skin received
         home health care in 1999 and 2000. This may indicate a recent increase in access for
         patients requiring wound care. The top five diagnoses in Figure 3 represent approximately
         25 percent of the “community beneficiary” population.




         4
          Percentages are based on a 3 month sampling time frame-- January 1, 2000 - March 31, 2000.


Home Health Community Beneficiaries 2001              11                                    OEI-02-01-00070
                                            Figure 3

                            Ranking of Highest Volume Diagnoses For 

                               “Community Beneficiaries” By Year


             Primary ICD9                  Percent             Percent             Percent          Percent
               Diagnosis                   (rank)              (rank)              (rank)           (rank)
                                            1997                1998                1999             2000
 250- Diabetes                             8.6 (1)             7.6    (1)         6.9 (1)           6.2 (1)
 401- Essential hypertension               7.7 (2)             6.2 (2)            5.5 (3)           5.3 (3)
 428- Heart failure                        5.3 (3)             5.0    (3)         4.7 (4)           4.6 (4)
 707- Chronic ulcer of the skin            3.6 (4)             4.6    (4)         5.7 (2)           5.6 (2)
 715- Osteoarthrosis                       3.2   (5)           3.3    (5)         3.2 (5)           3.6 (5)

                                                       Source: National Claims History File, first quarter data


Some evidence that “community home health beneficiaries” have more chronic
conditions than hospital-discharged patients

         In order to determine if “community home health beneficiaries” differ from beneficiaries
         who come from the hospital, we compared the diagnoses of home health beneficiaries
         discharged from the hospital with the diagnoses of beneficiaries who came into home
         health care directly from the community. For the year 2000, we found the top five
         diagnoses5 for hospital-discharged home health beneficiaries were: coronary bypass,
         respiratory infections and inflammations, specific cerebrovascular disorders, major small
         and large bowel procedures, and chronic obstructive pulmonary disease. When comparing
         these diagnoses to those of home health beneficiaries who came directly from the
         community, we find some evidence that, overall, “community home health beneficiaries”
         have more chronic conditions. For example, the top five diagnoses for “community home
         health beneficiaries” include chronic conditions such as diabetes, essential hypertension,
         and chronic ulcer of the skin. In contrast, hospital diagnoses such as coronary bypass,
         specific cerebrovascular disorders, and major small and large bowel procedures are more
         acute in nature. Supporting this, 19 of the 30 home health agencies we spoke with report
         that their patients who come from the hospital are “sicker” than those who come from the
         community.




         5
          Based on hospital DRG codes

Home Health Community Beneficiaries 2001           12                                        OEI-02-01-00070
Beneficiaries accessing home health care from the
community rely on multiple sources to obtain home health
services

Doctors play primary role

         All respondents agree that doctors play the most prominent role in connecting “community
         beneficiaries” to home health services. When we asked “community beneficiaries” how
         they found out about the home health agency they are using, the most common response
         was “through my doctor.” Similarly, 46 out of 60 aging network representatives we
         interviewed name physicians as the source that usually refers beneficiaries for services.
         Fifteen out of 21 physicians that we spoke with also state that they most often inform
         “community home health beneficiaries” about the availability of home health services.
         Home health agencies agree that “community beneficiaries” most often find out about
         home health services through their physician. However, they add that family or friends
         also play a role and that aging network representatives are sometimes instrumental in
         informing “community beneficiaries” about the availability of home health services.

Aging network also provides assistance

         Over half (37 of 60) of State and local aging network representatives that we spoke with
         report that “community beneficiaries” contact their office for help in obtaining Medicare
         home health services. Of those that are contacted, 76 percent report that they provide
         assistance either sometimes or frequently. During a recent 6 month period, aging network
         representatives report receiving, on average, 55 telephone calls from “community
         beneficiaries” needing home health services. When contacted by “community
         beneficiaries,” the aging network representatives generally conduct an assessment of the
         beneficiary’s needs. Sometimes they assist them in locating a home health agency, refer
         them back to their physician, or give them general information about home health.


Overall, home health care appears to be accessible
         Most physicians (18 of 21) report that all of their patients who both need and are eligible
         for Medicare home health services are able to get that care. The other physicians say that
         a few of their patients could not get care. The majority of home health agencies (22 of 30)
         we spoke to told us they were able to serve all patients who both needed and were eligible
         for Medicare home health care. Most of those who could not serve all patients noted that
         the number who could not be served has not changed in recent years. In addition, aging
         network representatives did not report any major access problems.




Home Health Community Beneficiaries 2001         13                                OEI-02-01-00070
         However, most aging network representatives who had contact with Medicare
         “community beneficiaries” point out that they generally do not know whether or not these
         beneficiaries eventually get home health services.

         While we did not find evidence of significant access problems for “community
         beneficiaries,” some respondents expressed concerns about various aspects of home health
         care. Those concerns centered around such things as medical conditions, Medicare
         eligibility and coverage, and home health agency staffing shortages. Some physicians (7
         of 21) report anecdotal evidence that “community beneficiaries” with medical conditions
         such as diabetes, wound care, and Alzheimer disease are unable to obtain Medicare home
         health services. About a third of the home health agencies we spoke with (12 of 30) also
         report that there are some services they are unable to provide to Medicare patients and
         approximately a third of the aging network representatives (23 of 60) report that there are
         some medical conditions that affect the ability of “community beneficiaries” to get
         services.6 Additionally, some physicians, home health agencies and aging network
         representatives report other factors that affect access. For example, six home health
         agencies report that staffing issues sometimes affect their ability to provide services.
         Examples of other obstacles aging network representatives (30 of 60) mention include:
         lack of knowledge about Medicare home health services; home health agency staffing
         shortages; Medicare reimbursement policies; and physicians being more cautious in
         ordering Medicare home health care for patients.

         When asked what happens to “community beneficiaries” who are unable to get home
         health services, physicians respond that patients go without care, go into the hospital, or
         are visited at home by their physician without having the benefit of Medicare home health
         services. Home health agencies agree that “community beneficiaries” who cannot find
         home care most often go without services or go into a nursing home. Some local aging
         network representatives point out that a portion of “community beneficiaries” are able to
         find alternatives to Medicare home health services through charitable or community grant
         programs.

         Thirteen of the 21 physicians we spoke with report a change in access over the past 5
         years for “community beneficiaries.” Five of these physicians note that access has
         improved. Comments from the remaining eight physicians include the following: that
         access has decreased because of tightened Medicare eligibility requirements, visits are
         shorter than they used to be, and fewer home health services are being provided to
         Medicare beneficiaries. The remaining eight physicians said there had been no change in
         access for “community beneficiaries” over the past 5 years.

         In most instances we found the reported experiences of “community beneficiaries” to be
         similar to those discharged from the hospital into Medicare home health services. We
         asked 501 Medicare beneficiaries who are receiving home health services whether they



         6
         It should be noted that patients with chronic conditions are not eligible for Medicare home health care if
they do not meet the skilled need eligibility criteria.

Home Health Community Beneficiaries 2001                14                                      OEI-02-01-00070
         had difficulty finding a Medicare home health agency to accept them and whether any
         agency had refused to accept them. Over 95 percent of both “community” and “hospital-
         discharged” beneficiaries say they experienced no problems in either regard. We also
         asked if the agency providing their services was their first choice. Again, the majority said
         “yes” and there was no significant difference in the reported experiences of “community”
         and “hospital-discharged” beneficiaries. The only significant difference we found was that
         more “community beneficiaries” report that they only had one agency to choose from (70
         percent versus 55 percent).




Home Health Community Beneficiaries 2001          15                                 OEI-02-01-00070
                                           SUMMARY


         We found that the characteristics of “community home health beneficiaries,” including the
         most common diagnoses, have generally remained the same over the course of the last few
         years. There is some evidence that “community beneficiaries” have more chronic
         conditions than hospital-discharged patients. Through reliance on their physicians, family,
         and the aging network, they appear to be getting access to Medicare home health care,
         however, a minority of respondents expressed some concerns such as barriers for
         Medicare patients with certain medical conditions, confusion regarding Medicare eligibility
         and coverage, and home health agency staffing shortages. In most instances, we found the
         reported experiences of “community beneficiaries” to be similar to those discharged from
         the hospital into home health services.




Home Health Community Beneficiaries 2001         16                                OEI-02-01-00070
                                                                          APPENDIX A



                 Selected List of Recent Office of Inspector General
                              Home Health Inspections


Office of Inspector General, US Department of Health and Human Services, “The Physician’s
Role in Medicare Home Health 2001,” OEI-02-00-00620, August, 2001.

Office of Inspector General, US Department of Health and Human Services,“Medicare
Beneficiary Experiences with Home Health,” OEI-02-00-00560, July, 2001.

Office of Inspector General, US Department of Health and Human Services, “Access to Home
Health Care After Hospital Discharge 2001,” OEI-02-01-00180, July, 2001.

Office of Inspector General, US Department of Health and Human Services, “Adequacy of Home
Health Services: Hospital Re-Admissions and Emergency Room Visits,” OEI-02-99-00531,
September 2000.

Office of Inspector General, US Department of Health and Human Services, “ Medicare Home
Health Services: Survey and Certification Deficiencies,” OEI-02-99-00532, September 2000.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies 2000,” OEI-02-00-00320, September 2000.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.




Home Health Community Beneficiaries 2001     17                              OEI-02-01-00070
                                                                                              APPENDIX B



                            Confidence Intervals For Key Findings


We calculated confidence intervals for key findings in the beneficiary survey. The point estimate
and 95 percent confidence interval are given for each of the following:

                     KEY FINDINGS                                 N         POINT                 95%
                                                                           ESTIMATE           CONFIDENCE
                                                                                               INTERVAL
 When we asked “community beneficiaries” how
 they found out about the home health agency they                158            63%              56% - 71%
 are using, the most common response was
 “through my doctor.” 7
 We asked Medicare beneficiaries who are
 receiving home health services whether they had
 difficulty finding a Medicare home health agency
 to accept them...
                            “Community”                          152            95%              92% - 99%
                             “Hospital-discharged”               278            99%             98% - 100%


 We asked Medicare beneficiaries who are
 receiving home health services whether... any
 agency had refused to accept them.
                            “Community”                          141            96%              93% - 99%
                            “Hospital-discharged”                253            99%             98% - 100%




         7
           This was a “check all that apply” question, therefore, respondent answers will add to over 100 percent
for this question.

Home Health Community Beneficiaries 2001                18                                      OEI-02-01-00070
                                                                                        APPENDIX C



                              Chi-Square Test for
                 “Community”/“Hospital-Discharged” Beneficiaries


We computed Chi-square values for differences between the experiences of “community” and
“hospital discharged” beneficiaries who gained access to home health services. All variables were
analyzed at the 95 percent confidence level.

            VARIABLE                       Degrees of        Chi-Square   Probability    Significant?
                                           Freedom
 The only significant difference
 we found was that “community                  1               7.54*          .01               Y
 beneficiaries” were slightly
 more likely to say that they did
 not have more than one agency
 to choose from (70% versus
 55%).

*Statistically significant at the 95 percent confidence level.




Home Health Community Beneficiaries 2001                19                              OEI-02-01-00070
